No. 20-1200

 

In THE
Supreme Court of the United States

COMMON GROUND HEALTHCARE COOPERATIVE, ON
BEHALF OF ITSELF AND ALL OTHERS SIMILARLY SITUATED,

Petitioners,
v.

UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

2,942 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 1, 2021.

 

Wilson-Epes Prifting Co., Inc.
